<html>
<title> - COMMITTEE FUNDING FOR THE 112TH CONGRESS (DAY 2)</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
            COMMITTEE FUNDING FOR THE 112TH CONGRESS (DAY 2)

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                 Held in Washington, DC, March 2, 2011

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
66-808                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7017001f30130503041815">[email&#160;protected]</a>lp.com.  

                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES GONZALEZ, Texas
RICHARD NUGENT, Florida

                           Professional Staff

                      Philip Kiko, Staff Director
                  Jamie Fleet, Minority Staff Director


            COMMITTEE FUNDING FOR THE 112TH CONGRESS (DAY 2)

                              ----------                              


                        WEDNESDAY, MARCH 2, 2011

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:40 a.m., in room 
1310, Longworth House Office Building, Hon. Daniel E. Lungren 
(chairman of the committee) presiding.
    Present: Representatives Lungren, Harper, Gingrey, Schock, 
Nugent, Rokita, Brady, Lofgren, and Gonzalez.
    Staff Present: Phil Kiko, Staff Director and General 
Counsel; Peter Schalestock, Deputy General Counsel; Kimani 
Little, Parliamentarian; Joe Wallace, Legislative Clerk; Yael 
Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Karin Moore, Elections Counsel; George 
Hadjiski, Member Services Staff; Richard Capetto, Member 
Services Staff; Jamie Fleet, Minority Staff Director; Kyle 
Andersen, Minority Press Secretary; Matt Defreitas, Minority 
Professional Staff Member; Khalil Abboud, Minority Elections 
Staff; and Thomas Hicks, Minority Elections Counsel.
    The Chairman. All right. The committee is back in session 
to hear from the Ways and Means Committee chairman and ranking 
member about their work for this year and the budget. We have 
all of the voluminous material that you have sent to us on 
personnel, on oversight, on other expenditures. If you have a 
prepared statement, that would be part of the record. But we 
are very interested in seeing what you have to say. Thank you 
for coming.

 STATEMENT OF THE HON. DAVE CAMP, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Camp. Thank you. Good morning, Chairman Lungren, 
Ranking Member Brady and members of the committee. I am here 
today to present the proposed budget for the Committee on Ways 
and Means for the 112th Congress, and I am joined by our 
ranking member and my friend from Michigan Mr. Levin.
    In accordance with our committee rules, the members of the 
Ways and Means Committee have already met and approved the 
budget before you. Before we get into the details of the 
budget, I would just like to make a couple of points.
    First and foremost, this budget reflects our Nation's 
current financial problems and the sacrifices many Americans 
have been forced to make as the unemployment rate has been 
stuck at or about 9 percent for nearly the last 2 years. Just 
as these families have had to cut back, we think it is 
appropriate for the committee to cut back. As such, we proposed 
cutting the committee's budget as compared to the last Congress 
by a total of 5 percent, a savings of over $1 million for the 
American taxpayers.
    Second, I would note that we have held flat the number of 
staff allotted to the committee and have reduced the funding 
allocated toward staff salaries.
    That concludes my statement. I would be prepared to answer 
any questions that the committee may have.
    [The statement of Mr. Camp follows:]
    [GRAPHIC] [TIFF OMITTED] T6808A.001
    
    The Chairman. Mr. Levin.

  STATEMENT OF THE HON. SANDER M. LEVIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Levin. Thank you, Mr. Chairman, Mr. Brady and your 
colleagues.
    On behalf of the minority, I express full support for this 
budget. We were fully consulted. It represents the cut that Mr. 
Camp has suggested. As you can see, our funding goes very much 
for salaries, and we receive our full share.
    I would just like to add, I did leaf through a lot of this 
detail, or some of it, and I just want to add--I know Mr. Camp 
believes this fully--our staffs work very, very hard, and 
everybody should understand the long hours that they undertake 
to work on behalf of the committee within the rules that are 
incumbent upon us.
    I just want to add that because Mr. Camp and I have been 
working with the staffs over the years, and I don't want to say 
it is the hardest-working staff, because your staff would not 
like me to say that, but there is no staff that works harder 
than the Ways and Means Committee.
    So I join in urging your support of this proposal. Thank 
you.
    The Chairman. Thank you very much.
    [The statement of Mr. Levin follows:]

    [GRAPHIC] [TIFF OMITTED] T6808A.002
    
    [GRAPHIC] [TIFF OMITTED] T6808A.003
    
    [GRAPHIC] [TIFF OMITTED] T6808A.004
    
    The Chairman. You allocate your resources between majority 
and minority in a way that is satisfactory to the two of you?
    Mr. Levin. Yes.
    Mr. Camp. We do. Historically it has always been a one-
third/two-third ratio. That was the allocation when I was in 
the minority. That is the allocation now that I represent the 
majority. We have had a tradition of that on the committee, and 
that continues.
    The Chairman. Do you have any shared staff?
    Mr. Camp. Shared staff with other committees? Between 
ourselves?
    The Chairman. No, professional staff. Or is it all majority 
and minority?
    Mr. Camp. Responsibilities are divided along majority and 
minority, but they do work closely together, developing 
important legislation. So there is a lot of consultation 
between the staffs.
    The Chairman. And the 5 percent decrease in funds, where 
specifically or mostly did you achieve your savings?
    Mr. Camp. We reduced our personnel costs. We held flat our 
number of filled staff positions. We limited some underlying 
budget items, specifically equipment and travel, and we 
streamlined some of our processes to better utilize electronic 
resources.
    The Chairman. Mr. Levin.
    Mr. Levin. That is what we did. Obviously we had a loss of 
personnel. This has happened before, and the two staffs worked 
together. You will see this detailed. It took a long period of 
time to put it together. It was done so carefully with maximum 
attention to efficiency.
    The Chairman. Have you been able to utilize technology to 
create some of those efficiencies? Some of the committees have 
come in and talked about the technology fixes they had last 
year which they think will assist them during this Congress.
    Mr. Levin. We will be using advanced videoconferencing and 
chat technology that will allow some interaction via secure on-
line areas, which I think will in turn help reduce some of the 
e-mails, phone calls, face-to-face meetings, allowing Members 
and staff to utilize resources better. So we do intend to do 
that.
    The Chairman. Mr. Brady.
    Mr. Camp. I did also want to mention, we will use video-
streaming services for publishing live and archived video of 
committee activities. That will be a new activity this year.
    Mr. Brady. Good morning, Chairman, Ranking Member. Thank 
you for appearing in front of us today. I have no questions.
    The Chairman. All right. Mr. Harper.
    Mr. Harper. No questions, Mr. Chairman.
    Mrs. Lofgren. No questions.
    The Chairman. Mr. Nugent.
    Mr. Nugent. No questions.
    The Chairman. This is relatively painless.
    Mr. Brady. You know, when we have no money to give extra, 
it is really painless. If we had some money to give out, we 
would be much more important.
    Mr. Camp. Thank you. I just also wanted to second what 
Sandy said, about how hard-working the staff is, in both 
preparing these documents, but also throughout the year. I do 
think we have folks that are very dedicated to trying to do the 
people's business in the best way possible.
    The Chairman. I appreciate that, and I appreciate the fact 
that we have received the documentation for the work that you 
do. We have got to prove to the American people that we are 
doing a good job, and that we are getting value out of the 
taxpayer dollars we are spending, and that is why we go through 
this exercise. Every committee has come before us having filled 
out the forms, given us the information, allowed us to go 
through it, and it is a situation this year where we are not in 
a position of looking at enhancing any budgets whatsoever. 
Everybody has come to us with a 5 percent cut, although I will 
say Judiciary Committee, on which I serve, actually came in 
with over a 10 percent cut, but that is because they had some 
additional funds they had to use last year for impeaching 
judges, and thus far we haven't found any judges we want to 
have come before us that way.
    I thank both of you.
    The Chairman. Good morning. Welcome to the chair and 
ranking member. We have your written submissions, if I can get 
to it, dealing with your personnel costs, oversight, other 
costs, consulting contracts and so forth. If you have written 
statements, they will be made part of the record. We would also 
like to hear from you. So you can tell us how well the two of 
you work together, and how well the committee is doing, and how 
you are going to manage with a 5 percent cut.
    Ileana.

STATEMENT OF THE HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Ros-Lehtinen. Thank you very much, Chairman Lungren, 
thank you Ranking Member Brady and members of the committee for 
the opportunity for Howard and me to appear before you.
    If we are to provide for our Nation's security, we must 
also be able to effectively address not just the immediate 
threats, but also learn from the developments such as the 
recent turmoil in the broader Middle East, prioritize our 
efforts toward preventing the emergence of future threats, and 
as our oversight plan denotes, we have a robust agenda planned 
for the 112th Congress to properly assess, develop and 
implement legislative strategies that are going to help us 
achieve those desired objectives.
    We believe, given the sizable surplus the committee had 
last year, that we can accomplish this ambitious goal despite 
the reduced budget for this Congress. The budget of the 
Committee on Foreign Affairs reflects the 5 percent cut in 
spending from the combined 2-year total budget from last 
Congress, and it reflects the high esteem that I hold for my 
good friend, my colleague from California, Ranking Member 
Berman, and the respect for minority rights through a majority-
minority distribution that better guarantees minority access to 
one-third of the committee's resources and provides the 
minority with an enhanced personnel budget allocation over 
which they have full control.
    The committee's budget clearly illustrates a renewed 
emphasis on oversight, transparency and accountability by 
allocating greater resources for new media, investigative 
travel and field hearings. The field hearings are also aimed at 
involving the American people more directly in the discussion 
of our U.S. foreign policy, our policy priorities, our 
international affairs budget.
    In furtherance of this more responsive approach to the work 
we perform, the main committee Web site now has a new 
interactive feature called ``Your Seat on the Dais,'' and we 
are changing it to ``You Ask the Question,'' which is more 
direct. This feature allows members of the public to submit 
questions that they would like to have answered by the 
panelists who are appearing before us, and the committee will 
review the submissions, and some of the questions will be 
selected by our members, who will then ask the question on 
behalf of the submitter during the hearing. We tried that 
yesterday when Secretary of State Hillary Clinton appeared 
before our committee, and that worked well.
    The majority staff now boasts an oversight and 
investigative team comprised of a chief counsel and two other 
full committee staff members, in addition to the staff of the 
Subcommittee on Oversight and Investigations. We have also 
instituted an oversight referral process similar to the 
legislative referral mechanism, and have added an interactive 
feature on our main committee Web site for whistleblowers to 
help us identify waste, fraud and abuse in the programs and the 
operations under the committee's areas of jurisdiction.
    With respect to the House Democracy Partnership and the Tom 
Lantos Human Rights Commission, which fall under the 
committee's jurisdiction, the travel and hearings of these two 
committees are now more closely coordinated with and integrated 
into the committee's activities. The committee budget reflects 
administrative costs for these two entities.
    Salary for the two dedicated House staff members for the 
House Democracy Partnership are paid in full from the 
Republican majority salary allotment. In honoring the memory 
and legacy of our dear colleague and deceased past chairman of 
the committee, Tom Lantos, the Republican majority funds a 
designated staff position for Chairman Wolf on the Tom Lantos 
Human Rights Commission.
    Further, with respect to interparliamentary groups, we are 
undertaking a rigorous review of the accounts of these IPGs and 
identifying excess funds towards returning them immediately to 
the Treasury. The American people are forced to make difficult 
choices to keep their fiscal house in order. We in turn need to 
focus on how to do more with less in the running of our 
respective committees and approach our review of programs, 
agencies and budgets under our jurisdiction with the same mind-
set, doing more with less, and I believe that our funding 
resolution reflects this commitment.
    Thank you very much, Mr. Chairman, Ranking Member Brady and 
members of the committee.
    The Chairman. Thank you very much for the presentation.
    [The statement of Ms. Ros-Lehtinen follows:]

    [GRAPHIC] [TIFF OMITTED] T6808A.005
    
    [GRAPHIC] [TIFF OMITTED] T6808A.006
    
    [GRAPHIC] [TIFF OMITTED] T6808A.007
    
    The Chairman. Howard.

  STATEMENT OF THE HON. HOWARD L. BERMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Berman. Thank you very much, Mr. Chairman, and my 
thanks to both you and Ranking Member Brady and your staffs for 
the assistance they have provided to the minority staff of the 
Foreign Affairs Committee in all of this. I want to 
particularly thank not in the pro forma way we sometimes thank 
our colleagues, but particularly a really heartfelt thanks to 
our Chairman, Ileana Ros-Lehtinen, and to her staff director, 
Dr. Yleem Poblete, for really helping us to shape a budget 
request that I think is fair.
    Switching from the majority to the minority is always 
difficult. I hear if it doesn't kill you, it makes you 
stronger, but it has been especially challenging as a result of 
the decision to reduce the budget from last year's number, as 
the chairman mentioned, and straight-line the budget into next 
year. But Congresswoman Ros-Lehtinen has been very, very 
helpful in providing assistance that our staff needed to make 
the transition, and I do appreciate her generosity.
    As was the case with the minority in previous Congresses, 
we anticipate coordinating well with the chair on receiving 
one-third of all nonpersonnel expenses in each expense 
category, travel, communications and equipment upgrades.
    The chairman intends to hold a number of field hearings, 
which I think is a good idea, and I am hoping to be able to 
make as many as I can, and I look forward to working with her 
on a bipartisan basis. You can imagine in foreign affairs you 
have a range of issues, and we will have some differences, but 
on a bunch of the core issues, I think there is a basis for a 
bipartisan approach, and we want to work closely. I am proud to 
be a cosponsor of the funding resolution for our committee.
    The Chairman. Thank you.
    [The statement of Mr. Berman follows:]

    [GRAPHIC] [TIFF OMITTED] T6808A.008
    
    [GRAPHIC] [TIFF OMITTED] T6808A.009
    
    [GRAPHIC] [TIFF OMITTED] T6808A.010
    
    The Chairman. These are public hearings, so some members of 
the American public get a chance to see what our committees do, 
and one of the areas of easy criticism is Members traveling 
overseas. I just returned on a congressional delegation headed 
up by one of your Members, Congressman Manzullo, and we were in 
New Zealand and Australia. And the refrain we heard from the 
members of the government there was, we don't see you people 
often enough. You are important players--that is, the United 
States--in this part of the world, particularly with the rise 
of China. We need to hear from you, we need to see you, we need 
to talk with you, you need to see what we have here.
    It impressed on me the need that we have for visits of this 
Congress with Members of Parliament and the governments in 
countries like that, and it was very obvious they thought it 
was important that we are there. They are both small, but very 
important allies.
    Maybe you could talk about, even with the 5 percent, what 
your committee plans to do with respect to that kind of thing. 
You mentioned the interparliamentary groups and any excess 
funds going back to the Treasury. But why do we have those, 
what do you anticipate doing this year, and how do you do it 
majority to minority?
    Ms. Ros-Lehtinen. Well, we have a very good working 
relationship, as you can surmise from our presentation here. We 
help set up the bipartisan part of the trips. And Members are 
interested in all hosts of issues, as Howard pointed out. In 
certain areas there is more interest than others because of 
their home districts.
    I know in your trip, Mr. Chairman, you left that area just 
2 hours, 2\1/2\ hours before that devastating earthquake. So 
that was an incredible experience. We have heard from Mr. 
Manzullo when he came back from the trip, he tells us about the 
positive and the negative aspects of the trip.
    As you know, the funding comes from the State Department 
budget itself, but we help coordinate the travel, we make sure 
that there is representation from both parties and the staff is 
present, so we provide the working staff to help facilitate the 
meeting. So we help in all kinds of coordination of the travel 
arrangements and the monies that come from the State Department 
budget.
    But as of now we have had no difficulty. There have been no 
problems. Members are not making any outrageous requests. They 
know that this is not the same kind of economic environment as 
before, so they are cognizant of that, and no one is making any 
requests that would be outlandish.
    We are dealing with these interparliamentary groups where 
other Members outside of our committee are very involved, and 
we want to make sure that we bring down the cost of those in 
every opportunity that we can.
    So, more with less, that is our mantra, and that includes 
trips as well.
    The Chairman. Ranking Member Berman, you might be 
interested to know in our conversations with the parliamentary 
leaders in both countries, we raised the issue of intellectual 
property; that there were efforts afoot in both of those 
countries to attack the notion of intellectual property as we 
understand it here that would put American businesses in 
jeopardy. There is a proposal before the New Zealand Parliament 
to basically get rid of IP protection for software development.
    In Australia, they were considering changing a packaging 
law with respect to tobacco by way of basically getting rid of 
the trademark protection. We indicated to them that we 
understood what they were doing in the area of tobacco, but to 
utilize the destruction of intellectual property rights as the 
manner to do it would be devastating for developments in the 
future, and that it was unacceptable as far as we were 
concerned as Members of Congress. Very interesting. It seemed 
to get their attention. And when they realized we had a 
bipartisan group there, and that we agreed on this, their 
response was, we better go back to the drawing board and take a 
look at it.
    Now, I don't know what the final resolution is going to be, 
but it was very interesting in a timely fashion, just 
discussing issues of interest between our countries, we raised 
an issue that was extremely important to our economy.
    Mr. Berman. Well, this doesn't surprise me. I could spend a 
great deal of your time, but I won't, giving specific examples 
of how specific congressional delegations have ended up making 
a difference on both security issues and on economic issues in 
terms of America's interests. During my 3 years as chair, I had 
an opportunity to lead four different CODELs with my then-
ranking member and current chair.
    We went to Afghanistan and Pakistan on a very quick, but 
fascinating and educational trip. On another one that you 
remember, we went to India and Pakistan. We took a trip to four 
countries in Africa and then went to China and Taiwan and South 
Korea. On the issue of the intellectual property, in Taiwan 
they had done some important advances in their intellectual 
property protection, but had sort of ignored the area of 
digital, and we raised issues with of the leadership of the 
Legislature in Taiwan, and the result was they took actions to 
sort of fill that void, a direct consequence being to the 
benefit of a lot of U.S. intellectual property owners in terms 
of doing business in Taiwan.
    I think it is an essential part of what we do. I think 
these parliamentary groups done right, avoiding the excesses 
and carefully oversighted and controlled, as the committee is 
doing now, are helpful to American interests.
    The Chairman. Thank you very much.
    Mr. Brady.
    Mr. Brady. Just to thank the chairlady and ranking member 
for being here today. I have no questions. Thank you.
    The Chairman. Mr. Harper.
    Mr. Harper. We obviously are having to do more with of 
less, and, of course, looking at the numbers for your 
committee, you know the numbers from the 110th to the 111th was 
it looks like about an 8.4 percent increase. So the number we 
have now with this 5 percent decrease is still more than you 
had during the 110th. Money still is tight, we know, through 
this term.
    If we get to the 113th and we see we have to scale back 
even more, is this something that you feel like you can figure 
out a way to make work?
    Ms. Ros-Lehtinen. Absolutely we can. If asked to do it 
again and to cut further, we can, and we're able to do it in a 
way that is fair to the majority and minority.
    Mr. Harper. Okay. Thank you.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. Just thank you both for your incredible 
efforts. In terms of travel, I know that it is important, and 
you bear the brunt of that burden because of your committee 
assignments, and the rest of us who don't have to go do that 
appreciate your willingness to represent our country in that 
way.
    I do have a question about security in the 
interparliamentary groups. The per diems never go up, so the 
accommodations degrade in terms of the cost. That is okay in 
terms of where you stay, but it is not okay in terms of the 
security issues. I want to make sure if we are sending people 
off on these missions, which is important, that we have got 
adequate attention to their security. Sometimes the security 
provided by a host country may be a little iffy.
    Can you address that?
    Ms. Ros-Lehtinen. Yes, and you are so right about that. As 
the allotment stays the same or goes down, it means that the 
places that you stay may not have the sufficient security that 
we would need or would like to have. But we coordinate the 
security not necessarily through the host countries, but 
through our embassy and through their diplomatic channels, so 
they are always aware of where we are and what our needs are, 
and they are very accommodating to any particular situation.
    In Pakistan, obviously, that is more of a problematic 
country, so we are allotted more protection. In other countries 
you don't have that security risk. But we coordinate with the 
diplomatic posts, our U.S. diplomats on the ground, and we have 
not run into any difficulties as of now.
    Ms. Lofgren. I would say, Mr. Chairman, if that becomes an 
issue for the committee, I, for one, would welcome being told 
about it, because I think if we are going to ask our Members to 
go off and do this for our country, we need to make sure they 
are safe when they do so.
    Thank you.
    The Chairman. Mr. Rokita.
    Mr. Rokita. I have a quick, but, to be quite honest with of 
you, it is kind of a substitute question. So to avoid rebuke 
from my chairman and ranking member, I am going to put it in 
the form of a budget question.
    It is about H1Bs. We have an immigration issue that we talk 
about, but we have one that we don't talk about. In my district 
we have Purdue and IU, and we spend a great deal of money 
educating students, only to send them out of our country so 
they can become millionaires in their homeland. I would like to 
keep these folks.
    Does your budget anticipate tackling this issue? I haven't 
been able to confer with you guys on the floor.
    Ms. Ros-Lehtinen. I will let Howard take care of that 
because he is on Judiciary and has dealt with this for so long.
    Mr. Berman. I would love to tackle that issue because I 
think our current situation is crazy from our economic security 
point of view. The students who are coming and getting 
postgraduate degrees in sciences and computer science and so 
many areas that could be of tremendous benefit, because of our 
current immigration laws aren't--even though they would like 
to--aren't able to take the kinds of employment here that would 
take that education and return it for their benefit, but also 
for the benefit of American companies. But I have a feeling 
that were I to tackle that, there would be at least two people 
on this committee who would say, that is Judiciary Committee.
    Mr. Rokita. Okay. Fair enough.
    Mr. Berman. But I think there is a responsive--there are 
people who are quite responsive to the issue you have raised on 
this committee and on the Judiciary Committee.
    Mr. Rokita. I will yield back to the chair.
    The Chairman. All I can say is that the gentlelady from 
California and I have worked with the gentleman from California 
for many years on this, and we would be happy to enlist 
additional support.
    Ms. Lofgren. Absolutely. We have a bill in circulation 
right now. We will see you after the meeting.
    Mr. Berman. This is a good opportunity.
    The Chairman. Cosponsorships are available at no cost.
    Mr. Nugent.
    Mr. Nugent. I have no questions.
    The Chairman. I want to thank both of you for appearing 
before us and outlining your intentions and the spirit of 
bipartisanship that you have expressed, and also explaining 
somewhat on the record why it is important that you do what you 
do and how it benefits the people that we serve here.
    Thank you very much.
    This is great. We have the Rules Committee coming 5 minutes 
early. Mr. Dreier, always the gentleman. That is very nice.
    Mr. Dreier. Not always.
    Ms. Slaughter. Yes, he is.
    The Chairman. Well, I won't ask Ms. Slaughter for a comment 
on that.
    Thank both of you for coming before us. This is the regular 
procedure to consider the budget requests of the various 
committees before we offer the omnibus budget resolution. We 
all are aware of the 5 percent that was mandated by the 
resolution passed on the floor of the House, the first order of 
business that we did. We do have your written submissions as to 
personnel requirements, oversight responsibilities and other 
costs and your statements, but we are very much interested in 
hearing from you directly.
    So, Mr. Dreier.

    STATEMENT OF THE HON. DAVID DREIER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Dreier. Thank you very much, Mr. Chairman.
    Let me begin, with all due respect to Mr. Brady, saying how 
much I really enjoy this shift here, and it is nice to see Mr. 
Lungren with the gavel. And to Mr. Harper and my California 
colleague Ms. Lofgren, with whom I have worked on H1B visas, 
and Sheriff Nugent, a member of the Rules Committee, it is 
great to be here with my distinguished colleague Ms. Slaughter.
    The request before you continues the tradition of lean 
funding that has characterized the Rules Committee in the past 
during majorities of both parties, but will still allow us to 
perform our critical institutional role during the months and 
the years ahead.
    This marks my fifth appearance before this committee as 
chairman of the Committee on Rules. The Rules Committee is both 
traffic cop and first responder. We assist the Speaker in 
moving the routine business of the majority as fairly as we 
possibly can, while at the same time standing ready to respond 
in the event of unforeseen circumstances. This makes serving on 
the Rules Committee, as Sheriff Nugent can attest, 
simultaneously rewarding and challenging.
    More than any other standing committee, our members and 
staff must be agile to respond to our difficulties endemic to 
running a majority. The budget that our ranking member Ms. 
Slaughter and I have submitted allows us to maintain our 
ability to meet these challenges, while recognizing that all 
committees must do their part to control spending.
    We are requesting a total budget authority of approximately 
$6.8 million, divided equally between this year and next. 
Because the committee has been very judicious in its budget 
request in the past, this request is $357,000 less than the 
committee received in the last Congress, and even about $69,000 
less than the committee received in the 110th Congress. This 
reflects a 5 percent reduction from our level granted for the 
111th Congress.
    Just over 90 percent of our requested funds goes to 
personnel compensation. The remainder is designated for needed 
equipment, supplies and services.
    Mr. Chairman, this Congress marks an important turning 
point in the Rules Committee's minority/majority relationship. 
While in the past the minority has controlled a full one-third 
of the personnel compensation budget along with a third of the 
staff slots, this year marks the first time that the minority 
will be given full control over one-third of the entire budget.
    While there have not generally been issues in the past with 
the minority receiving funding for needed services or 
equipment, this change grants the minority a level of autonomy 
that neither party has previously enjoyed. Now, in the 
Madisonian spirit of recognition of minority rights, I believe 
that this is a very important change that is long overdue.
    Even with the cuts we made compared to past years, we are 
still funding our important priorities. As we promised in the 
Pledge to America, we have opened the deliberations of the 
Rules Committee to anyone with an Internet connection.
    With of the assistance of the Chief Administrative Officer 
and the Clerk, we now Webcast every hearing and meeting of the 
committee, and we maintain archives of those recordings on our 
Website. We are involved in a pilot program with the same 
vendor that provides the services to the Clerk's HouseLive 
Program. While we understand that the CAO is looking into a 
broader contract with a vendor for all committees, we will 
continue working with him individually until that contract is 
in place.
    Separately, I have asked your committee to fund the 
permanent installation of audio and video broadcast equipment 
in our hearing room. This will improve the quality of our 
broadcasts and allow the CAO to redeploy the equipment he has 
loaned the committee to other uses.
    We are continuing development of the CORE database and 
workflow automation tool. This custom software was started 
during the 109th Congress and was significantly improved during 
the last 4 years. We will be focusing on improving the 
usability of the system as well as extending its capabilities 
to integrate it more tightly in our Website.
    We are continuing our efforts to improve transparency. We 
have started posting the text of bills and resolutions in the 
House standard XML format on our Website. We intend to work 
closely with the Office of Legislative Counsel and Office of 
the Clerk to enable the posting of committee reports and 
amendments in this more flexible format as well.
    It is also important to note that the Rules Committee 
Website is serving as the official repository for the text of 
all legislation to be considered on the House floor until your 
committee designates another official location for these 
documents.
    In all, I believe that this is a very fair budget, Mr. 
Chairman. It maintains our history of wisely using our 
resources and providing the House with a very favorable return 
on its investment.
    I am happy to take any questions.
    The Chairman. Thank you very much.
    [The statement of Mr. Dreier follows:]

    [GRAPHIC] [TIFF OMITTED] T6808A.011
    
    [GRAPHIC] [TIFF OMITTED] T6808A.012
    
    [GRAPHIC] [TIFF OMITTED] T6808A.013
    
    The Chairman. Ms. Slaughter.

  STATEMENT OF THE HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Slaughter. Thank you, Mr. Chairman. I am happy to be 
here with you this morning, Ranking Member Brady and other 
members of the committee. It is a pleasure to appear before you 
today with Chairman Dreier to discuss the budget request for 
the Committee on Rules. We fully support the majority's budget 
request, which Mr. Dreier has already laid out to you. I think 
it is important to note that the Rules Committee, in spite of 
its sometimes partisan outward image, is really one of the most 
collegial committees in the House with regard to day-to-day 
activities.
    Mr. Dreier and I share the unique honor of having served as 
both chair and ranking member of our committee. As such, we 
share a unique insight into the challenges facing both the 
majority and the minority roles, whether it will be handling 
one of our infamous late-night meetings or, more to the point 
this afternoon, addressing the work of the committee.
    With regard to the specifics of the 112th Congress, I want 
to express my full support for the chairman's request to reduce 
the committee's funding--should I start over?
    Mr. Dreier. No. This microphone is very sensitive. You 
don't even need a microphone. We can all hear you.
    Ms. Slaughter. It was such a shock. Suddenly this Southern 
voice comes out of this New York woman.
    Mr. Dreier. It is not sudden. It has been going on for a 
while.
    Ms. Slaughter. That was really quite stunning, to hear that 
expressed that loudly.
    Anyway, with regard to specifics of the 112th Congress, I 
want to express my full support for the chairman's request to 
reduce the funding by 5 percent. These are tough economic 
times. And even if Mr. Dreier and I sometimes disagree on the 
best approach, it is clear that we must tackle this ever-
growing budget deficit. We need to start by setting an example 
and cutting our own budgets, and this request does just that. I 
am confident that the funds that Mr. Dreier has requested will 
be spent wisely and effectively by both the majority and 
minority.
    We would also like to express our gratitude to the majority 
for allowing the practice of many other committees of giving 
the minority control over one-third of the committee's budget 
for the 112th Congress. In the past, the Rules Committee 
majority has controlled the entire budget except staff salary. 
In practice, the majority, whether controlled by Democrats or 
Republicans, has administered the committee in a collegial, 
nonpartisan manner. We appreciate the majority's decision to 
formalize that tradition in this year's request.
    As we begin the 112th Congress, I am pleased to see the 
majority's continued expanding of the transparency initiatives 
that we have started in the last 4 years. We both share the 
commitment to ensuring that the American people have up-to-the-
minute access, and as ranking member I look forward to working 
with Chairman Dreier to continue to make the committee 
transparent, fair and responsible.
    Thank you.
    [The statement of Ms. Slaughter follows:]

    [GRAPHIC] [TIFF OMITTED] T6808A.014
    
    [GRAPHIC] [TIFF OMITTED] T6808A.015
    
    [GRAPHIC] [TIFF OMITTED] T6808A.016
    
    [GRAPHIC] [TIFF OMITTED] T6808A.017
    
    The Chairman. Thank you very much, both of you.
    First of all, I appreciate the fact that now you have a 
one-third/two-thirds split across the board, and I hope that 
will be the tradition in the future, where it is formalized, as 
was suggested by the ranking member.
    Secondly, when you appeared before us either last year or 
the year before, we had the discussion over cameras in the 
Rules Committee room, and I am glad that you moved forward on 
that, and that now those hearings are more accessible to the 
public-at-large on a continual and regular basis. I think that 
is a step forward.
    Mr. Dreier. I would like to note for the record, Mr. 
Chairman, that our first hearing was only a 12-hour hearing 
following installation of those cameras.
    The Chairman. I understand that, and I am sure after some 
people take the makeup off and so forth, they will find out 
maybe they don't have to say as many words, and that is both 
members of the committee and witnesses.
    Ms. Slaughter. Mr. Lungren, may I say as well, we did 
always allow for cameras at our meeting. We allowed whatever 
requests were made. C-SPAN and other credentialed media were 
specifically invited and encouraged to attend. We take 
transparency very seriously. We made transcripts available for 
everybody to review, not just Members and the press.
    We customarily held our meetings at 3 or 5 p.m. to maximize 
attendance and accessibility. We reserved one-third of all 
hearing room seats for the press to improve the ease of 
coverage. And all relevant committee reports were posted on the 
Website to make them more accessible to the public.
    This year the majority decided to install permanent cameras 
rather than rely on the independent media. As ranking member, I 
am happy that has been done. We set some responsible 
guidelines, however. Our rule on our side, which was 
unanimously adopted, ensures coverage of every meeting in full, 
and that proceedings are archived to be made available via the 
Internet.
    So I remain ready to work with the chairman on 
transparency.
    The Chairman. I appreciate that very much. Having been here 
in two different tours, it has always amazed me that one of the 
most important committees in the entire Congress has one of the 
smallest hearing rooms.
    Ms. Slaughter. Isn't that amazing? Completely airless, too.
    The Chairman. And airless.
    Ms. Slaughter. No circulation of any sort.
    The Chairman. I happen to have been here long enough ago to 
actually have been on the floor the first day that C-SPAN 
started filming, and I remember the remarkable change it made, 
I happen to think for the better, that people around the 
country were able to, at the moment things were happening in 
the House, to be able to observe it without having to come here 
and sit in our galleries. I have always thought we ought to 
extend that as much as possible. That is why I thank your 
committee for making permanent that setting.
    Mr. Dreier. Well, you are right, Mr. Chairman. Let me say 
the Rules Committee up until this point was the only committee 
in the Congress, save the Ethics Committee and Intelligence 
Committee, for obvious reasons, that did not have full gavel-
to-gavel television coverage made available. So I am happy we 
have been able to do that.
    The Chairman. I am not trying to start a fight. I applaud 
you for making progress.
    Mr. Dreier. No, no, I just want to say that in support of 
the ranking member.
    The Chairman. Indeed. Thanks very much.
    Mr. Brady.
    Mr. Brady. No, just to thank the chairman and ranking 
member for being here. I appreciate all the good work you do.
    One real quick comment. I have meetings myself in a 
different capacity, being the chairman of the party in the city 
of Philadelphia, and I have them in the smallest, hottest room. 
People don't want to stay there that long. Maybe it is a good 
idea you are a small room.
    Mr. Dreier. Just to expand on that, I will tell you when I 
went on to the Rules Committee in 1990, David Broder, the dean 
of the press corps with the Washington Post, said to me that 
the Rules Committee is small by design. He said it is to keep 
us out.
    So we are trying to bring about a change in that.
    Ms. Slaughter. I would like to make one more point about 
frugality, David. The chairs we sit in in the Rules Committee 
were purchased in 1967. Chairs have changed a lot since then, 
but we never thought we should spend the money to buy new ones. 
We want to say we are doing our part up there to save money.
    Mr. Dreier. I never gave that any thought.
    The Chairman. Keep them a little longer. They will qualify 
as antiques.
    Ms. Slaughter. You do if your legs are shorter.
    The Chairman. Mr. Harper.
    Mr. Harper. I just want to thank both of you for doing a 
thankless job, and appreciate the efforts to do more with less. 
Thank you.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. Thank you to both of you for your service and 
all of those long meetings. It is not something the rest of us 
envy, but we do appreciate your service. It is terrific.
    The Chairman. Mr. Nugent.
    Ms. Slaughter. One of us.
    Mr. Dreier. One of those long-suffering Rules Committee 
members.
    Mr. Nugent. I always love it. We talk about 
nonpartisanship, and we have an issue rather quickly. But the 
good part is that actually the budget for the Rules Committee 
is less than the 110th Congress, and that is a phenomenal 
position to be in. I am glad to see that you both can sit at 
the same table. There are times, obviously, in the Rules 
Committee that it gets a little contentious. I won't say it is 
totally--it is partisan, but it is important work. I didn't 
realize the chairs were as old, but after 12 hours, I will tell 
you, I don't care what chair we had, it would be old.
    But I appreciate both of your service on that committee, 
and obviously having sat on it now just for a short period of 
time, I truly do appreciate all that every person that serves 
on that committee does.
    Mr. Dreier. Thank you very much, Mr. Nugent, for your great 
service on the committee as well.
    The Chairman. I thank both of you. I appreciate your work, 
and thank you for your submissions.
    All right, the committee now welcomes Chairman Upton and 
Ranking Member Waxman of the Committee on Energy and Commerce.
    We received your submissions, written submissions, on the 
oversight plan, the issues you are dealing with, your personnel 
costs and other costs, and so forth, and we examined those. If 
you have prepared statements, they will be made part of the 
record. We look forward to hearing from both of you.

STATEMENT OF THE HON. FRED UPTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman. I do have a 
prepared statement. I am not going to read it. I am just going 
to say that not only are we early----
    The Chairman. We appreciate that.
    Mr. Upton. We are better than on time, but we are also 
complying with the 5 percent cut from the last Congress. It has 
been tough, I will confess that. Not only did we expand our 
number of subcommittees from five to six from the last couple 
of years, it is also very difficult, as we find, to compete for 
great staff. And I am so fortunate that we have done very well. 
But when you look downtown and first-year law students can make 
$150,000 without knowing anything, we are a little bit under 
the gun in that respect. But Mr. Harper knows, because he has 
firsthand knowledge of the key folks that we have, being a 
member of our committee, we have done very well. But we have 
complied with the budget request and appreciate your 
leadership.
    I yield to my friend and ranking member, Mr. Waxman.
    [The statement of Mr. Upton follows:]

    [GRAPHIC] [TIFF OMITTED] T6808A.018
    
    [GRAPHIC] [TIFF OMITTED] T6808A.019
    
    [GRAPHIC] [TIFF OMITTED] T6808A.020
    
    [GRAPHIC] [TIFF OMITTED] T6808A.021
    
    [GRAPHIC] [TIFF OMITTED] T6808A.022
    
    [GRAPHIC] [TIFF OMITTED] T6808A.023
    
  STATEMENT OF THE HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Mr. Chairman, Mr. Brady, Members, I am pleased 
to be here today to express to you that Chairman Upton and his 
staff have worked with us in a collegial manner in preparing 
this budget. I support this proposal and believe it is fair 
toward the committee minority.
    As you know, our committee has broad jurisdiction. We have 
a lot to do. I want to be sure that we get the implementation 
of the comprehensive health reform law. The Republicans want to 
take the time to repeal that law. We need good staff on both 
sides on that issue. We also need to deal with other 
responsibilities on other matters.
    I would urge you to consider increasing the committee's 
funding by reallocating some of the funds that went to the 
Select Committee on Global Warming to our committee. The Energy 
and Commerce Committee has primary responsibility in the House 
for examining the public health and energy security issues 
posed by global warming and greenhouse gas emissions. The 
chairman and I may have different perspectives on these issues, 
but we fully agree that the committee should be spearheading a 
close review of this subject. Some additional resources from 
the funds from the select committee would not increase the 
overall amount of committee funding, but it would help us do 
our job for the American people.
    So I support the efforts of the chair and urge you to 
support our budget.
    [The statement of Mr. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T6808A.024
    
    [GRAPHIC] [TIFF OMITTED] T6808A.025
    
    [GRAPHIC] [TIFF OMITTED] T6808A.026
    
    [GRAPHIC] [TIFF OMITTED] T6808A.027
    
    [GRAPHIC] [TIFF OMITTED] T6808A.028
    
    The Chairman. Mr. Chairman, can you tell us, do you share 
jurisdictional responsibility over EPA with the Science 
Committee, or is that not in your bailiwick?
    Mr. Upton. We would like to think not. Actually though, to 
be completely serious, John Shimkus chairs the Environment and 
Economy Subcommittee, and what we did on our side, and I am the 
former ranking member of the Energy and Environment 
Subcommittee, and we split the jurisdiction of that former 
subcommittee into two subcommittees. Ed Whitfield now runs the 
Energy and Power Subcommittee, the name it was back in the 
1970s, 1980s and some of the 1990s, and John Shimkus runs the 
Environment and Economy separately.
    Mr. Waxman. But the chair is asking a different question 
between our committee and another committee, Natural Resources.
    Mr. Upton. No, he said Science.
    The Chairman. Look, I know it is controversial on both 
sides on EPA. I just want to know whether we have got 
committees that are going to do the oversight of EPA so we can 
answer some of the questions that are being asked of us by our 
constituents.
    Mr. Waxman. We have the primary responsibility for the 
regulatory parts of EPA when it comes to clean air, and if we 
were doing something on greenhouse gas emissions, it would 
legislatively come out of our committee. Other committees share 
part of the jurisdiction, Natural Resources, Science Committee.
    The Chairman. My question is, in terms of oversight, is 
your committee prepared to do the oversight on EPA so that at 
least--and I know it is contentious, but my point is, I would 
like to be able to answer my constituents who ask me questions 
about EPA, what are you guys doing, what are they doing. I 
would like to know as part of your oversight responsibilities, 
do you take that as a charge, and with the 5 percent cut, are 
you going to be able to do that so we can have the kind of data 
presented to us as a result of oversight by your committee and 
other committees that we can make some intelligent decisions?
    Mr. Upton. The quick answer is yes. In fact, we have Lisa 
Jackson coming. The Administrator of the EPA is coming again to 
testify this Friday, I believe. Next Friday.
    The Chairman. Then the other question I would have is I 
have looked back at committees and what they have not spent in 
the past. Your committee in the past has pretty much had to 
expend all of your resources. So when you take a 5 percent hit, 
that might be more difficult than some other committees.
    How were you able to achieve your 5 percent--I am not 
suggesting we have any more money, but I would just like to 
know, where did you go to achieve your 5 percent cut?
    Mr. Upton. Well, since I did not have a role in last year's 
budget, as being only a ranking member on a subcommittee, we 
have made it work. We took the traditional balance between 
staff, between majority and minority, something that has been 
around for a long, long time, but we were able to come up with 
a 5 percent cut.
    We have added some technology to our committee from before. 
There are some things that still don't work. We had microphones 
not work yesterday in one of our hearing rooms. We have been 
able to tighten our belt and make it work.
    The Chairman. Mr. Waxman.
    Mr. Waxman. Yes. If we this trend of cutting the committee 
budget continues, I think we would face significant staffing 
gaps. We need to oversee health care reform, and move forward 
on energy independence, food safety, safe drinking water and 
other important initiatives under our jurisdiction that are 
critical to the health and welfare of our citizens and national 
economy. If anything, we need more money to help ensure that we 
can conduct thorough review of the laws under our jurisdiction 
and ensure that programs are operating that minimize waste, 
fraud and abuse.
    So, I am not endorsing the 5 percent cut. I think we have a 
lot to do, and that 5 percent cut would make it harder for us 
to do our job.
    The Chairman. As I understand it, Chairman Upton, you still 
have 122 slots on your committee?
    Mr. Upton. I believe that that is correct.
    The Chairman. I understand the difficulty everybody has, 
but by my count, that is the highest of any committee in the 
House right now. I know we can all find ways to spend our money 
effectively, I guess, is what some would say, but we are under 
the crunch to work with this 5 percent cut, and I appreciate 
the fact that you both have worked on that and that you have, I 
guess, the one-third/two-third split, majority to minority.
    Mr. Brady.
    Mr. Brady. Just to thank the chairman and the ranking 
member for being here, and thank you for your courtesy. There 
are a few incidents where I had constituents from the city of 
Philadelphia had to come in front of you. You were most 
courteous and fair, and I appreciate that.
    Thank you.
    The Chairman. Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman. It is indeed an honor 
to serve with you----
    Mr. Upton. How did you get that waiver? That is what I want 
to ask.
    Mr. Harper. I don't know how that happened. But I do want 
to say on the issue of the funding with the 5 percent cut, keep 
in mind that from the 110th to 111th, that was a 12 percent 
increase in funding, and even at the level we are now, you are 
still almost $1.4 million over the 110th level. So money is 
tight. We are all having to do more with less.
    Is this something--if we get to the 113th Congress, and we 
realize that we are still having to cut, do you foresee the 
ability to trim back even more than the 5 percent we are doing 
this year?
    Mr. Upton. We will obey the rules of the House and what is 
there. We have been able to accommodate the vote that we had 
back in January on the second day that we were in session, and 
I know, and you know, too, that we have a very talented staff. 
When you look at the share of the budget that goes to the 
staff, they help us do our work on both sides.
    We have a very talented staff, and I know under the budget 
constraints, we will probably have some difficulty in keeping 
them all. I never want them to go away. They are great people. 
But at some point they are likely to depart because of higher 
salaries, and that is the dilemma that we will be in. We look 
at so many issues before our committee, knowing we have 
jurisdiction over certainly now the energy costs that are 
there, but the health care costs, telecommunications, commerce, 
manufacturing and trade, the oversight responsibility that we 
have. It is tough to lure folks sometimes as we did from the 
private sector coming to work for the committee, and we are 
very glad of the leadership that I have on our top committee 
staffs that we are able to do that.
    Mr. Harper. Can you meet your oversight responsibilities 
with the current budget?
    Mr. Upton. I believe we can. I am confident with this 
budget we can do our job.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. No questions.
    The Chairman. Mr. Schock.
    Mr. Schock. No questions.
    The Chairman. Mr. Nugent.
    Mr. Nugent. No questions.
    The Chairman. That is it.
    Mr. Upton. On time and under budget.
    The Chairman. On time and under budget, and out of here 
early. Thank you.
    All right. Thank you for being here early. We are actually 
moving through rather well, and we appreciate you working with 
us on that.
    The committee now welcomes Chairman Hastings and Ranking 
Member Markey of the Committee on Natural Resources. We have 
the voluminous information that you have supplied us with in 
terms of your oversight plan, your answers to funding 
questions, personnel and other things. If you have a prepared 
statement, we would make that part of the record, but we are 
anxiously awaiting your oral testimony.
    I am not going to say what the ranking member just said a 
moment ago. Would you like to say that?
    No. Okay. All right.
    Doc Hastings, thanks very much.
    Mr. Brady. Only that I know I won't rob a bank. But you 
know more.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. When I hear you say you are anxiously 
awaiting my statement, I reflect on what my dad used to say: 
Are you sure you are lying?
    Since my full statement will appear in the record, I will 
just simply say the budget request we submitted to you reflects 
the 5 percent reduction. We can certainly live with that.
    From a staff standpoint, we are mirroring essentially what 
we did last year when Chairman Rahall and I were here, as far 
as the allocation of staff. We have, I think, six staff that 
are nonpartisan that do all the administrative work, and we 
divide the rest by two-thirds to one-third. That has worked 
very well on the Resources Committee in the past, and we mirror 
that again.
    The one area that the budget does reflect is a slight 
decrease in travel. I am not going to say that is problematic, 
but I think with the idea that we need more oversight, the 
Congress needs more oversight in a variety of areas, I am not 
going to say it is going to be problematic, because we 
certainly are going to live with that.
    Finally, I will simply say while I know my distinguished 
ranking member and I will probably have violent disagreements 
on policy, we agree that this is the proper way to fund our 
committee, and we look forward to working together at least in 
that respect.
    But now, unless Ed wants to say he is going to agree with 
me and have an epiphany because I am the chairman, I fully 
accept that, too. But in case that doesn't, we will work 
certainly in a bipartisan way as far as administration of our 
committee is concerned.
    With that, I will yield back my time.
    [The statement of Mr. Hastings follows:]

    [GRAPHIC] [TIFF OMITTED] T6808A.029
    
    The Chairman. Mr. Markey.

  STATEMENT OF THE HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. Thank you so much. I agree with Mr. Brady that 
the longer you are in politics, the more you should aspire to a 
higher percentage of your thoughts going unspoken. It is a good 
philosophy that he is the epitome of, I should say, in terms of 
his success in politics.
    This is my 35th year on the Natural Resources Committee. It 
is my first as the ranking member. This committee was 
established right after the Louisiana Purchase in order to 
manage those issues here in the United States Congress, and I 
think that what Doc just laid out is an accurate reflection of 
the relationship which the majority and the minority have.
    We are very happy with the allocation. We think it is a 
fair division of assets within the committee, and we do share 
the administrative costs, which I think makes a lot of sense, 
because much of what we do is just to ensure that there is a 
proper operation of the committee. And I think that division of 
assets works out very, very well, and it is done honestly and 
in a completely nonpartisan basis, which I think really does 
help the overall atmosphere of the committee.
    There is some travel which is necessary for us to do the 
kind of oversight that Doc has laid out as part of the agenda 
of the committee, but I would say that notwithstanding the 
partisan differences that are going to exist on particular 
issues, in general we have an excellent working relationship, 
and I would recommend the adoption of the budget as the 
chairman has recommended it.
    The Chairman. Thank you.
    [The statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] T6808A.030
    
    [GRAPHIC] [TIFF OMITTED] T6808A.031
    
    [GRAPHIC] [TIFF OMITTED] T6808A.032
    
    [GRAPHIC] [TIFF OMITTED] T6808A.033
    
    The Chairman. Doc, you mentioned--Mr. Chairman, you 
mentioned that you were in your budget looking at fewer travel 
funds. Is that where you looked to take most of your 5 percent 
cut, or did you have to do it across personnel as well?
    Mr. Hastings. No, it was across the board. But the travel 
one, I won't by any stretch of the imagination say it is a huge 
cut. It is slightly less. But, no, it was generally across the 
board is where we looked at it. It wasn't any one particular 
area. It just turned out when we allocated it, that the travel 
came in less. That is all.
    The Chairman. In your committee jurisdiction, how much 
jurisdiction do you have over water resources?
    Mr. Hastings. Well, however it relates to public lands, we 
have a great deal. I know in your State it has a huge impact, 
as it does in my State as far as allocating water resources. 
But generally there are other issues that play into that mix, 
other statutes on the Federal books that play into that. But it 
does affect water issues, no question.
    The Chairman. That is one of my questions. It is important 
for us in California and the West. We have a huge number of 
issues in terms of water allocation. We also have the issue 
that probably is within another committee of when we have made 
a decision that we don't do earmarks, the question is how do 
water projects get done, and what happens there, because that 
is a question I am getting from my constituents, and it is a 
question without an answer right now. I hope that in 
diminishing travel expenses, you being a man of the West, you 
will not forget the importance of the West as you look at 
issues particularly affecting water in our region.
    Mr. Hastings. Well, obviously the challenge is to 
prioritize that travel, and I can tell you that we have 
prioritized the travel to go to California to speak to the very 
issue you are talking about. The time and all hasn't been set, 
but that is certainly something we are going to do, because 
this is a very serious issue, as you well know, to your economy 
and to certain segments of your economy, especially agriculture 
in the San Joaquin Valley.
    The Chairman. Well, we also have the issue right now of 
contracts that existed for decades with the Bureau of 
Reclamation having a new determination. I have communities in 
my district that have used the existing reliance on what the 
law was to figure out how best to utilize those resources in an 
environmentally protective fashion, and now they are being told 
that what they relied on no longer exists.
    Mr. Hastings. I will tell you as we are speaking right now, 
the Water Subcommittee, chaired by your colleague from 
California, Tom McClintock, they are having a budget hearing 
right now, and these issues are being asked and being probed by 
Mr. McClintock, as they should be. So out of that will come 
some policy, I am sure, that will be developed in that regard.
    The Chairman. I always remember Mark Twain's statement: 
Whiskey is for drinking; water is for fighting.
    Mr. Hastings. Right. And that there is also another truism 
that is emerging, and that is we shouldn't ration shortages. We 
should try to find abundance. And it seems to me, some of the 
policies in the past have been exactly that, rationing 
shortages.
    The Chairman. Okay. And I realize this is--talking about 
your budget, I just wanted to make sure that part of the 
jurisdiction you have isn't going to be slighted, because it 
really goes down to the question of how the people live in my 
area and whether they are able to have a standard of living.
    Mr. Hastings. Like I say, it is prioritizing our travel 
budget, and that is high on our priority list.
    The Chairman. Thank you very much.
    Mr. Brady.
    Mr. Brady. Just to thank the chairman and ranking member 
for being here today, and keep up the good work. I know you 
have a little bit of constraint with your budget problems, but 
we know you can fulfill them. Thank you.
    The Chairman. Mr. Harper.
    Mr. Harper. Thank you for what you are doing and for your 
service on the committee and leadership. I appreciate you 
trying to do more with less. We will continue to work together. 
Thank you.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. Just thanks to both Members. You will have 
disagreements on policy, but it is nice to see it is not a 
personal disagreement or a disagreement about how the committee 
will function itself. So thank you both for that.
    The Chairman. Mr. Schock.
    Mr. Schock. No questions.
    The Chairman. Mr. Nugent.
    Mr. Nugent. Do you have any oversight as it relates to 
water quality, numeric nutrients, EPA?
    Mr. Hastings. Well, most of that jurisdiction as far as 
oversight on those issues resides with the Energy and Commerce 
Committee. Now, it intersects with us as it relates to public 
lands. Where these issues intersect with some issues on public 
lands, then we have a say. But primarily it is within the 
Energy and Commerce Committee.
    Mr. Markey. If I could, where, for example, there is 
fracking going on on public lands, and there are water quality 
issues, of course, that would come under the jurisdiction of 
this committee. I think that is where it could begin to affect 
rivers or drinking water that is coming off of public lands 
because of the drilling, the fracking that is occurring on 
public lands. We would have jurisdiction.
    Mr. Nugent. In Florida, obviously, there is a large amount 
of public lands that currently have wetlands on them, but also 
flowing waters. Thank you.
    The Chairman. I want to thank both of you. You used the 
term ``violent disagreements.'' I would just suggest to you, 
having played basketball with Mr. Markey, well, in the days 
when he had two good Achilles tendons, watch out for the 
elbows.
    Mr. Hastings. Well, in the time we have been together, he 
hasn't thrown an elbow yet. But thanks for the heads-up.
    The Chairman. It usually happens in the second half.
    Mr. Markey. This is reflecting ancient animosity which all 
Notre Dame people have towards Boston College.
    The Chairman. No, no, no. I have great respect for people 
that went to BC. We used to refer to it as ``backup college.''
    Mr. Markey. No longer.
    The Chairman. I don't want to show any disrespect to Mr. 
Van Hollen.
    Mr. Ryan. His staff director is right here, and he is good 
to go, and we agree.
    The Chairman. Thank you for showing up.
    We received the submissions that you have in writing about 
your budget, about salaries, et cetera, and that is part of our 
record. Any written statements that you have will be made part 
of the record. We are pleased to hear from you.

    STATEMENT OF THE HON. PAUL D. RYAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Ryan. This committee has a long tradition of the 
majority treating the minority fairly. That was the case when 
John Spratt was chairman. We are continuing that tradition, 
one-third/two-thirds, sharing the equipment budget, doing it 
honestly. Mr. Van Hollen's statement will concur.
    I thank you for this opportunity. I ask unanimous consent 
that my full statement be included in the record.
    The Chairman. Without objection, it will be.
    [The statement of Mr. Ryan follows:]

    [GRAPHIC] [TIFF OMITTED] T6808A.034
    
    The Chairman. The 5 percent cut----
    Mr. Ryan. We are fine with it.
    The Chairman. Do you have any difficulty with respect to 
the ability that you----
    Mr. Ryan. No. We have our budget. We can live within the 5 
percent cut. I can speak on behalf of both of us that we can do 
that. We have been doing that anyway, so we are good to go.
    The Chairman. I notice you are one of the committees over 
the last number of years that have had the smallest increase, 
both the smallest request and the smallest increase.
    Mr. Ryan. We try to walk the talk.
    The Chairman. Do you have the same number of members on the 
Budget Committee this year as was true in the previous 
Congress?
    Mr. Ryan. Yes. I don't think the ratio has changed. We are 
a little bit smaller. The ratio is about the same, but we are a 
little bit smaller.
    The Chairman. Okay. And staff, you have 66 staff members 
total?
    Mr. Ryan. That sounds about right.
    The Chairman. Okay. I don't want to show any disrespect to 
Mr. Van Hollen, but I also don't want to----
    Mr. Brady. We have a statement from Mr. Van Hollen that 
supports what Chairman Ryan is saying.
    The Chairman. Mr. Brady.
    Mr. Brady. Thank you for being here. I appreciate you doing 
the job that you got to do. I know it was not easy. I know you 
don't enjoy it. But thank you.
    Mr. Ryan. Thank you.
    The Chairman. Mr. Gingrey.
    Mr. Gingrey. Mr. Chairman, thank you.
    Chairman Ryan, in regard to the 5 percent, which you said 
you are fine with, and being the Budget Committee, I know that 
you know how to work that out, did it result in any lesser 
number of personnel, full-time equivalents?
    Mr. Ryan. No. We have been living with this savings all 
along. As you know, when you go from minority to majority, 
obviously the majority going into a minority shrinks their 
staff, and the minority going into the majority increases its 
staff. So putting those changes and dislocations aside, this 
doesn't hamper our ability because we have been frugal all 
along.
    Mr. Gingrey. In regard to deeper cuts, and, of course, 
obviously some amendments were proffered in regard to even 
additional 5 percent across-the-board cuts, was that something 
that would have caused a great deal of heartburn to try to 
enact after taking a 5 percent cut?
    Mr. Ryan. It simply depends upon the depth. Obviously, 
there comes a point where then you do start doing layoffs. We 
have lots of printing we do in the Budget Committee. We don't 
do lots of travel, but there are some. We plan on doing some 
field hearings in the States to get ideas from around the 
country. Obviously, personnel is the biggest line item in our 
budget. It depends on how deep it gets.
    I would simply say we do a lot with very few people. We are 
in charge, both the minority and the majority, of crafting the 
budget for the Federal Government not only for this year, but 
for the next 10 years. That is a big task. It requires a lot of 
expertise. And it is important that we do this here because we 
are the legislative branch. We don't want to simply rely on the 
executive branch to have the pen, to have the spreadsheets, to 
call all the shots. We need to have independent expertise here 
in Congress so we can exercise our constitutional rights under 
the separation of powers of having the power of the purse.
    So with 66 people between the majority and the minority, 
that compares to thousands of people at OMB, 400 to 500 at CBO. 
So we do a lot compared to everybody else with very few people.
    Mr. Gingrey. Indeed you do, Mr. Chairman. I commend you and 
the ranking member for the work you do with very limited 
resources.
    Mr. Ryan. OMB is not quite 1,000. It is under 1,000. I am 
sorry. I stand corrected.
    Mr. Gingrey. But the importance of what you do cannot be 
overstated, and we on the committee deeply appreciate the work 
you do.
    Mr. Chairman, I will yield back. No further questions.
    The Chairman. For the record, can you talk at least a 
little bit about how your committee works with CBO? CBO is a 
creation of the Congress. As you say, they have 400 folks there 
dealing with issues.
    Mr. Ryan. They have 200 to 300 people.
    The Chairman. Okay, 200 to 300 people, but obviously far 
more than you do with 66. How and in what way do you rely on 
them in your preparation of the budget?
    Mr. Ryan. We rely on CBO to provide us all of the savings 
estimates, all of the cost estimates of any particular policy. 
As you know, tax policy is under the purview of the Joint 
Committee on Taxation, which is under the purview of the Ways 
and Means Committee. We get our revenue lines from CBO. But all 
spending estimates on savings or costing come from CBO.
    So our analysts, the 66 people here between the minority 
and the majority, are in constant communication on a daily 
basis with their counterparts in CBO to get the savings 
estimates on any particular policy change we are considering 
that we are planning on.
    So all of our budgeting is done based upon their estimates, 
based upon their numbers, based upon their baseline. So they 
prepare what I would call the measuring stick, the baseline, 
and then we think of reforms to get savings, or to spend more 
money, it depends on whatever budget you are writing, and we 
rely on their estimates as to the cost estimates of those 
policies to put our budgets together. So we completely rely on 
CBO.
    The Chairman. Thank you very much.
    Mr. Van Hollen, thank you for coming. We realize that we 
were a little ahead of schedule, and you are not late actually, 
in accordance with the time. In fact, you are actually a little 
early. Not as early as Mr. Ryan.
    Mr. Ryan has assured us that you agree with everything he 
presented. No, what he said was you agree with the budget 
submission. But we would love to have you speak for yourself.

  STATEMENT OF THE HON. CHRIS VAN HOLLEN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Van Hollen. Thank you, Mr. Chairman, Mr. Brady, members 
of the committee, Mr. Gingrey. I learned in the last 5 minutes 
I really have to get in better shape running over here. But I 
am going to be very brief.
    As you know, on the Budget Committee, while we may have 
contentious debates on policy issues and look forward to trying 
to find areas where we can agree from time to time on policy 
issues, we fully support the chairman's request for the budget.
    The Budget Committee, this committee, as I am sure you 
know, has a long tradition of bipartisan cooperation when it 
comes to the fair distribution of the committee's resources, 
and I am pleased to report that from our vantage point, that 
cooperation is very much there under the leadership of Chairman 
Paul Ryan. I want to thank him for his cooperation and 
graciousness in leading the committee and in the fair 
distribution of the resources.
    Mr. Ryan. John Spratt was that way with us, Jim Nussle was 
that way with them, and we are just continuing the tradition.
    Mr. Van Hollen. We did have to make some tough decisions, I 
would say, but it was as a result of the transition in the 
Congress, not as a result of different distribution in the 
budget. But anything you can do to support the budget as 
requested, we have already, especially, of course, on the 
minority side, had to make some painful adjustments.
    [The statement of Mr. Van Hollen follows:]

    [GRAPHIC] [TIFF OMITTED] T6808A.035
    
    [GRAPHIC] [TIFF OMITTED] T6808A.036
    
    The Chairman. Having served on the Budget Committee, 
knowing the work you do and the excellent staff that has been 
there, both Democrat and Republican, I appreciate your budget 
request. I also appreciate the fact that your committee has the 
history of probably being the most frugal in terms of requests 
for----
    Mr. Ryan. As I say, we like to walk the talk.
    The Chairman. That has been true under both Democrat and 
Republican. I appreciate the fact you are continuing that.
    Do any Members have questions of Mr. Van Hollen?
    Well, we thank you. If you want to figure out how to get in 
shape, just follow Paul Ryan's prescription.
    Mr. Ryan. 6:30 every morning in the gym.
    The Chairman. This hearing is adjourned.
    [Whereupon, at 12:22 p.m., the committee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
